AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Operations




  Audit Report

 The Department's Continuity
 Planning and Emergency
 Preparedness




 DOE/IG-0657                                August 2004
effectiveness of corrective actions for addressing recognized emergency preparedness
weaknesses or to share complex-wide lessons learned about common problems. As a
result, the Department may face increased risks to its operations, employees, and
surrounding communities during an emergency situation.

During our review, we noted that NNSA had initiated efforts to improve emergency
preparedness including revising requirements for corrective actions and lessons learned
sharing. Additionally, we observed that the facilities visited had been proactive in
scheduling and performing a number of emergency preparedness exercises. However,
additional action is necessary to ensure the development and implementation of
comprehensive continuity of operations plans and the correction of deficiencies disclosed
during emergency preparedness exercises are adequately addressed. Accordingly, we
recommended a number of actions that, when completed, should help improve the
Department's continuity of operations and emergency preparedness programs.

MANAGEMENT REACTION

Management generally concurred with the report's findings and recommendations and
agreed to expedite the completion of continuity of operations planning guidance that
would be applicable to all facilities. In addition, management agreed to revise emergency
preparedness requirements to ensure that sites establish a validation process for the
completion of corrective actions and lessons learned sharing among field sites.
Management's comments are included in Appendix 2.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Energy, Science and Environment
    Administrator, National Nuclear Security Administration
    Acting Assistant Secretary for Environmental Management
    Director, Office of Security and Safety Performance Assurance
    Chief of Staff
REPORT ON THE DEPARTMENT'S CONTINUITY
PLANNING AND EMERGENCY PREPAREDNESS_______




TABLE OF
CONTENTS



              Continuity and Preparedness Planning


              Details of Finding ............................................................ 1

              Recommendations and Comments................................. 5


              Appendices


              1. Status of Continuity of Operations Plans ................... 8

              2. Management Comments ........................................... 9

              3. Prior Reports ........................................................... 17

              4. Objective, Scope, and Methodology ........................ 19
CONTINUITY AND PREPAREDNESS PLANNING
____________________________________________________
Background              Federal requirements for continuity planning come from the
                        Federal Emergency Management Agency (now a component of the
                        Department of Homeland Security) which was designated as the
                        lead agency to coordinate Federal continuity planning in 1998 as
                        part of Presidential Decision Directive 67. The directive was
                        designed to ensure agencies were prepared to continue essential
                        functions during a broad range of threats and emergencies, such as
                        accidents, technological emergencies, and military or terrorist
                        attack-related incidents. The requirements of the directive include
                        developing, documenting, and testing continuity of operations
                        plans at all of the Department's facilities.

Facilities Continuity   Field sites had not developed comprehensive plans to continue
Planning and            essential functions during an emergency, and were not
Emergency Testing       correcting all weaknesses identified during emergency
                        preparedness exercises.

                                              Field Site Continuity Planning

                        None of the five sites we visited prepared and tested a fully
                        documented continuity of operations plan. Based on data collected
                        from June 2003 to June 2004 at the field sites, we determined that
                        site-level plans had not been developed and documented in
                        accordance with Federal guidance. We observed a lack of
                        uniformity and varying approaches to continuity planning at each
                        site. The chart below shows the status of continuity planning
                        elements at each site1, with check marks denoting satisfaction of an
                        element:                                                           Argonne
                                                                                 Hanford




                                                                                                            Alamos
                                                                       Sandia




                                                                                                     NETL

                            Planning Element                                                                Los
                            Essential functions identified
                            Continuity plan exercised
                            Orders of succession for key
                                                                                             √        √       √
                            positions
                            Interoperable communications                √          √         √        √       √
                            Alternate facilities and prepare for
                                                                                                      √
                            unannounced relocation
                            Vital records and databases
                                                                                   √                  √       √
                            protected and readily available

                        ___________
                        1
                         Sites audited are more fully described in Appendix 4.


______________________________________________________________________________
                                                               Details of Finding
____________________________________________________
                        As indicated in the preceding chart, the sites reviewed had not
                        identified the essential functions that need to be continued in the
                        event of an emergency. Identification of such essential functions is
                        the foundation for determining what actions and resources are
                        needed to provide for continued operations. A number of sites had
                        addressed several of the elements associated with a continuity of
                        operations plan; however, these elements were not part of a
                        comprehensive plan. A narrative description of the status of site
                        continuity plan elements is included as Appendix 1.

                                 Recurring Emergency Preparedness Weaknesses

                        Since 1998, the Department has identified emergency preparedness
                        weaknesses at various locations. In our current review, all five
                        sites visited experienced recurring emergency preparedness
                        weaknesses, some lasting over five years. For example:

                        •    The Hanford Site (Hanford) did not properly identify or
                             segregate simulated contaminated victims during emergency
                             preparedness exercises in 2002 and 2003;
                        •    Argonne National Laboratory (Argonne) did not secure event
                             scenes during exercises in 2000 and again in 2001; and,
                        •    The Sandia National Laboratories (Sandia) did not provide
                             medical care in a timely manner to simulated victims during
                             exercises conducted from 1998 to 2002.

                        Further, we noted that certain weaknesses disclosed as a result of
                        emergency preparedness exercises are common among sites. For
                        example, as in the case of the Hanford weakness discussed above,
                        Los Alamos National Laboratory (Los Alamos) determined in
                        2002 that it did not properly segregate simulated contaminated
                        victims. Similarly, both the National Energy Technology
                        Laboratory (NETL) and Los Alamos determined that weaknesses
                        existed in their communications capabilities during an emergency
                        situation.


Continuity and          Field sites did not fully plan for continuing essential operations
Corrective Actions      because the Department had not developed specific guidance
                        for preparing such plans. Additionally, the Department had not
                        defined requirements for ensuring the effectiveness of corrective
                        actions or sharing lessons learned among sites from emergency
                        preparedness exercises.




______________________________________________________________________________
                                                               Details of Finding
____________________________________________________
                                 Continuity of Operations Planning Requirements

                        Although general guidance existed at the Federal level, the
                        Department did not provide sites with specific direction regarding
                        the preparation of continuity of operations plans. For example, the
                        Department had not defined what constitutes an essential function
                        at the site level or established a timeframe for sites to complete
                        their plans. A number of site officials told us that they did not
                        intend to prepare continuity of operations plans until the
                        Department defined exactly what was expected in the plans.

                        Office of Security and Safety Performance Assurance (SP)
                        officials told us that they had developed draft guidance for field
                        sites to use in preparing continuity of operations plans. However,
                        the guidance has not been formalized. These officials indicated
                        that they planned to revisit the guidance after a Government-wide
                        continuity of operations exercise was completed by the Federal
                        Emergency Management Agency in May 2004.

                                        Requirements for Corrective Actions

                        We also found that sites were not required to test the effectiveness
                        of their actions to correct weaknesses. Consequently, certain
                        weaknesses were identified during subsequent exercises when
                        corrective actions had not been completely effective. For example,
                        Hanford identified and implemented corrective actions as a result
                        of the 2002 exercise that showed a weakness in identifying and
                        segregating contamination victims. However, a 2003 emergency
                        preparedness exercise demonstrated that the weakness continued to
                        exist and additional corrective actions were needed--including
                        procedural changes.

                        The Department recently implemented an enhanced corrective
                        action validation process that could be applied to corrective actions
                        identified during emergency preparedness exercises. This process,
                        the Corrective Action Management Program (CAMP), includes SP
                        findings, significant accidents, and other issues specifically
                        directed by the Secretary or Deputy Secretary. CAMP requires
                        that a field oversight official validate corrective actions as they are
                        being developed and again, within six months after implementation
                        to ensure that actions have adequately corrected the deficiency.
                        Additionally, CAMP requires causal factor analyses of findings
                        and emphasizes that corrective actions must prevent recurrence of
                        the finding.



______________________________________________________________________________
                                                               Details of Finding
____________________________________________________
                         In addition, we found that the Department did not require sites to
                         have performance measures to ensure corrective actions were
                         effective in preventing recurrences of exercise findings. For
                         example, we noted that at least two of the sites we visited did not
                         have performance measures to ensure that weaknesses identified
                         during emergency preparedness exercises were effectively
                         corrected.

                                        System for Sharing Lessons Learned

                         Finally, the Department did not effectively utilize a lessons learned
                         system for sites to review and consider the results and corrective
                         actions taken by other facilities. To eliminate duplication of
                         emergency management efforts across its field sites, the
                         Department developed the Society for Effective Lessons Learned
                         Sharing (SELLS) to centrally track and share lessons learned.
                         However, sites were not required to use SELLS and it has not been
                         effectively utilized by the Department. For example, sites had
                         entered only 39 emergency management lessons learned in SELLS
                         since 1995 and several emergency managers indicated that they
                         currently did not use the database. In comparison, the five sites
                         included in our review identified at least 95 weaknesses in 2002
                         alone, none of which were entered into SELLS. Hanford was the
                         only site we visited that made use of SELLS and had entered 17 of
                         the 39 lessons learned contained in the system.

Lack of                  Without improvements in the continuity planning and
Improvements Could       emergency preparedness programs, the risk posed by emergency
Lead to Increased Risk   situations to the Department's operations, employees and the public
                         is increased. For example, because planning had not been
                         performed, Los Alamos did not identify a radioactive waste
                         treatment facility as an essential function that needed to continue
                         operations. During the Cerro Grande fire in 2000, Los Alamos
                         employees had to enter a fire zone to continue operation of the
                         facility. After the fire, Los Alamos made provisions to improve its
                         capabilities to continue operations or permit a safe shutdown of the
                         waste processing facility.

                         In addition, if known weaknesses are not effectively corrected such
                         as in the area of communications, sites may not be able to maintain
                         contact with facilities emergency management personnel or with
                         local authorities, and may be unable to provide vital information to
                         the public during emergencies. Further, the failure to ensure that
                         lessons learned at one site are shared with others increases the risk



______________________________________________________________________________
                                                               Details of Finding
____________________________________________________
                        that common weaknesses may not be identified and promptly
                        corrected.

RECOMMENDATIONS         To improve the Department's continuity planning and emergency
                        preparedness program, we recommend that the Director, Office of
                        Security and Safety Performance Assurance:

                        1.   Expedite the completion of and ensure implementation of
                             continuity planning guidance that includes field site
                             requirements.

                        To ensure that the Department receives the full benefit from its
                        emergency preparedness exercises, we recommend that the
                        Administrator, National Nuclear Security Administration revise
                        Department requirements to:

                        2.   Consider use of the validation process in the Corrective
                             Action Management Program - or similar validation
                             requirements - to ensure corrective actions sufficiently
                             address noted deficiencies. This process should include, at a
                             minimum, requiring a field oversight official to validate
                             corrective actions;

                        3.   Require use of the existing lessons learned system, or another
                             mechanism, to ensure that field sites share emergency
                             management deficiencies and methods to address those
                             deficiencies; and,

                       4.    Establish performance measures related to timely
                             implementation and validation of corrective actions from
                             field site exercises.


MANAGEMENT              In separate responses from the responsible programs, management
REACTION                generally concurred with the report's findings and
                        recommendations. Management's comments are included in
                        Appendix 2.

                        SP officials recognized the need to provide formal requirements
                        and guidance to field elements regarding continuity of operations
                        planning and agreed that such requirements and guidance needed
                        to include timeframes and milestones for field site implementation.
                        In addition, SP stated that it has already created draft guidance for
                        field elements and indicated that it would promptly return to the
                        guidance after a Government-wide continuity exercise.
                        Additionally, SP noted that some field sites not included in the
______________________________________________________________________________
Page 9                                         Recommendations and Comments
____________________________________________________
                     audit had already developed continuity plans in accordance with
                     Federal guidance.

                     The National Nuclear Security Administration (NNSA) agreed to
                     include specific requirements in the next revision to the applicable
                     Departmental Order on "Comprehensive Emergency Management
                     System" (DOE O 151.1B) for a validation process and the sharing
                     of lessons learned from emergency preparedness exercises. NNSA
                     also agreed to revise existing performance measures to address
                     timely implementation and validation of corrective actions from
                     field emergency response exercises and internal evaluations.
                     Additionally, NNSA commented that it had initiated a continuity
                     planning effort for its field sites earlier this year that, while still in
                     formative stages, is an active effort led by Headquarters. Finally,
                     NNSA agreed to establish timeframes for implementation of
                     corrective actions in the Department Order.

                     EM acknowledged that Hanford had no stand-alone continuity plan
                     and that planning for these objectives could be more detailed.
                     However, EM believed that Hanford's site-wide and facility
                     specific emergency planning addresses facility protection in depth.
                     In addition, EM noted that it uses the Occurrence Reporting and
                     Processing System to track and disseminate lessons learned. EM
                     also noted that it had reorganized in Fiscal Year 2004 to streamline
                     lessons learned activities and accelerate improvements in
                     emergency continuity planning in the field. EM took issue with
                     our presentation of recurring weaknesses and felt that the vast
                     majority of weaknesses at Hanford have been effectively corrected.
                     EM believes that an example of Hanford's recurring weaknesses
                     was due to personal errors by responders and did not warrant site-
                     wide corrective action.


AUDITOR COMMENTS     Management's comments are generally responsive to our
                     recommendations. Based on management's comments, we made
                     several changes to the body of this report and modified our
                     recommendations. However, we take exception to several of the
                     comments from EM.

                     We noted that Hanford had made some effort to identify essential
                     facilities that needed to be protected and secured as part of the
                     emergency management function. However, they did not identify
                     essential functions needed to continue operation during an
                     emergency, and, had not completed and tested a detailed stand-
                     alone continuity plan. Hanford officials acknowledged that while

______________________________________________________________________
Page 10                                                      Comments
____________________________________________________
                     some elements of continuity planning had been addressed, they
                     were continuing the process.

                     In regard to EM using the Occurrence Reporting and Processing
                     System for lessons learned, this system did not contain issues
                     identified in Hanford's emergency management exercises or those
                     from other programs. In addition, EM sites would likely derive
                     benefit from using a lessons learned system that includes the
                     experiences of the entire complex.

                     We agree with EM's assertion that action has been taken to resolve
                     many weaknesses in emergency management. However, we noted
                     recurring weaknesses at each site we visited, including Hanford.
                     As such, the report recommends implementation of a
                     comprehensive program to address weaknesses identified during
                     emergency preparedness exercises.




______________________________________________________________________
Page 11                                                      Comments
Appendix 1

                   STATUS OF CONTINUITY OF OPERATIONS PLANS

None of the sites we visited had a comprehensive continuity of operations plan. Specific
information on the status of the various planning elements of the continuity of operations plans
follows.

Essential Functions Identified: None of the field sites in our review determined or prioritized
which functions must be continued under all circumstances. Several sites told us that they had
identified critical facilities or personnel that need to be protected, but the information had not
been included in an overall continuity of operation plan.

Continuity Plan Exercised: None of these sites tested continuity plans, however Los Alamos
and Hanford officials felt that their experiences dealing with recent, real-life emergencies
provided the same benefit.

Orders of Succession: Two sites had not identified or established current orders of succession
for key positions. Sandia officials asserted an order of succession for emergency management
was developed, but not well documented. Hanford's succession plan was not current.

Interoperable Communications: All sites had some interoperable communications. Absent
detailed continuity planning documents, however, we could not ascertain whether this capability
was sufficient to support continued operation of essential functions.

Alternate Facilities and Preparation for Unannounced Relocation: Only NETL had an
alternate facility to provide capability to perform essential functions and sustain operations for a
period up to 30 days. Sandia officials stated that they have limited capabilities in this area, but
have designated an alternate building that could be used in the event of an emergency. Other
sites' responses were limited to back-up facilities for emergency operating centers only.

Vital Records and Databases Identified and are Recoverable: Three sites had made
provisions for the protection and availability of records and systems needed to support essential
functions. Argonne has identified and provided for recovery of financial documents, however,
programmatic documents are uncertain. Sandia has a vital records program, which includes
procedures for protecting vital and important computer records. However, Sandia is still
developing procedures for protecting non-computer records.




Page 8                                               Status of Continuity of Operations Plans
Appendix 2




Page 9       Management Comments
Appendix 2




Page 10      Management Comments
Appendix 2




Page 11      Management Comments
Appendix 2




Page 12      Management Comments
Appendix 2




Page 13      Management Comments
Appendix 2




Page 14      Management Comments
Appendix 2




Page 15      Management Comments
Appendix 2




Page 16      Management Comments
Appendix 3


                                        PRIOR REPORTS

Office of Inspector General Related Reports

•   Power Marketing Administration Infrastructure Protection (OAS-B-03-01, April 2003). The
    audit disclosed that vulnerability and risk assessments for critical assets at Western and
    Southwestern Power Marketing Associations were either inadequate or did not exist.

•   Emergency Medical Coordination Memorandum of Agreement at Brookhaven National
    Laboratory (DOE/IG-0594, March 2003). According to this inspection, Brookhaven had not
    fully implemented the terms of its emergency medical response agreement with Stony Brook
    University Hospital. Further, the medical response agreement as well as other key
    emergency response documents had not been updated or reviewed.

•   Cyber-Related Critical Infrastructure Identification and Protection Measures
    (DOE/IG-0545, March 2002). The audit noted that the Department had not made sufficient
    progress in identifying and developing protective measures for critical infrastructures or
    assets. Also, the Department had not devoted sufficient resources to identifying and
    developing protective measures for cyber-related assets.

•   Implementation of Presidential Decision Directive 63, Critical Infrastructure Protection
    (DOE/IG-0483, September 2000). The audit disclosed that the Department had not
    implemented its critical infrastructure protection plan to mitigate significant vulnerabilities,
    or assure the continuity and viability of its critical infrastructures. Planning and assessment
    activities required by Presidential Decision Directive 63, such as critical asset identification,
    vulnerability assessments, and corrective action plans remained incomplete.

Government Accountability Office Related Reports

•   Continuity of Operations, Improved Planning Needed to Ensure Delivery of Essential
    Government Services (GAO-04-160, February 2004). While all but 3 of the agencies
    reviewed had developed and documented some elements of a COOP plan, none of the
    agencies provided documentation sufficient to show that they were following all the guidance
    in the Federal Emergency Management Agency Federal Preparedness Circular 65.

•   Homeland Security, Challenges in Achieving Interoperable Communications for First
    Responders (GAO-04-231T, November 2003). GAO found that Federal, state, and local
    Governments face several major challenges in addressing interoperability in their wireless
    communications. These challenges include 1) identifying and defining the interoperability
    problem; 2) establishing national goals and standards; and, 3) defining intergovernmental
    roles.




Page 17                                                                              Prior Reports
Appendix 3


•   Critical Infrastructure Protection, Challenges for Selected Agencies and Industry Sectors
    (GAO-03-233, February 2003). GAO found that each of four agencies, including the
    Department of Energy, had made progress in implementing several PDD 63 requirements.
    However, none of the agencies had fully implemented all requirements, including the
    fundamental processes of identifying agency assets that are critical to the nation and
    determining their dependencies on other public and private assets.




Page 18                                                                         Prior Reports
Appendix 4



OBJECTIVE     The objective of this audit was to determine whether the
              Department has implemented effective and comprehensive
              continuity of operations and emergency preparedness programs.


SCOPE         We conducted the audit from June 2003 to August 2004 at
              Department of Energy Headquarters in Washington, DC; the
              Sandia National Laboratories in Albuquerque, New Mexico; the
              Los Alamos National Laboratory in Los Alamos, New Mexico; the
              Hanford Site in Richland, Washington; the Argonne National
              Laboratory in Argonne, Illinois; and the National Energy
              Technology Laboratory in Pittsburgh, Pennsylvania, and
              Morgantown, West Virginia.


METHODOLOGY   To accomplish the audit objective, we:

               •   Reviewed applicable Federal regulations, Departmental
                   orders, and implementing procedures and practices;

               •   Reviewed and analyzed exercise and/or drill evaluation
                   reports at selected sites;

               •   Reviewed and analyzed information pertaining to corrective
                   action plans for exercise and/or drill findings;

               •   Obtained and reviewed hazard surveys and/or hazard
                   assessments at selected sites;

               •   Obtained and reviewed Emergency Management Plans at
                   selected sites;

               •   Reviewed performance related information to determine
                   compliance with the Government Performance and Results
                   Act of 1993;

               •   Held discussions with Headquarters officials regarding the
                   Department's continuity of operations planning and
                   emergency management; and,

               •   Held discussions with officials from Sandia, Los Alamos,
                   and Argonne National Laboratories, as well as the National



Page 19                                Objective, Scope, and Methodology
Appendix 4

                  Energy Technology Laboratory and Hanford Site regarding
                  the Department's continuity of operations planning and
                  emergency management.

             The audit was performed in accordance with generally accepted
             Government auditing standards for performance audits and
             included tests of internal controls and compliance with laws and
             regulations to the extent necessary to satisfy the audit objective.
             Accordingly, the assessment included reviews of Departmental and
             regulatory policies, procedures, and performance measures related
             to the Department's continuity of operations planning and
             emergency management. Because our review was limited, it
             would not necessarily have disclosed all internal control
             deficiencies that may have existed at the time of our audit. We did
             not rely on the data contained in SELLS, therefore, we did not
             conduct any reliability assessments on the data.


             The exit conference was held with management on August 5, 2004.




Page 20                                Objective, Scope, and Methodology
                                                             IG Report No. DOE/IG-0657

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.




Page 21                                                 Objective, Scope, and Methodology
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form




   Page 22                                                   Objective, Scope, and Methodology
